WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 19-1369

Trumpf, Inc.

V. CSI Worldwide, LLC
(Petitioner)

(Respondent)

Supreme Court, U.S.
FILED

JUN 15 2020
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari uncles:, ofilffiefecitixwegLERK
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
111 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Recorci foi the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

Ju

5, 2020

(Type or print) Name
Firm

Mr.

D Ms. D Mrs.

El Miss

Robbins, Salomon & Patt, Ltd.

Address

180 North LaSalle Street, Suite 3300

City & State

Phone

RobertM. Winter

Chicago IL

312-456-0374

Zip
Email

60601

rwinter@rsplaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Todd M. Saranecki of Adler, Murphy & McQuillen LLP
Christopher Scott D'Angelo of Montgomery McCracken Walker & Rhoads LLP

